DATE FILED: November 9, 2020

Colorado Supreme Court
2 East 14th Avenue
Denver, CO 80203
Certiorari to the Court of Appeals, 2019CA737
District Court, El Paso County, 2018CV238
Petitioner:

Supreme Court Case No:
2020SC550

David K. Jenner,
v.

<

Respondents:
Colorado Department of Corrections, Canteen Correctional
Industries, and Time Computation Departments.
ORDER OF COURT

Upon consideration of the Petition for Writ of Certiorari to the Colorado
Court of Appeals and after review of the record, briefs, and the judgment of said
Court of Appeals,
IT IS ORDERED that said Petition for Writ of Certiorari shall be, and the
same hereby is, DENIED.

BY THE COURT, EN BANC, NOVEMBER 9, 2020.

2011092035 0713 1 -232-1002 2

19CA0737 Jenner v CDOC 06-11-2020
COLORADO COURT OF APPEALS

DATE FILED: June 11, 2020

Court of Appeals No. 19CA0737
El Paso County District Court No. 18CV238
Honorable Eric Bentley, Judge

David K. Jenner,
Plaintiff-Appellant,
v.
Colorado Department of Corrections, Canteen Correctional Industries and Time
Computation Departments,
Defendants-Appellees.

JUDGMENT AFFIRMED
Division VI
Opinion by JUDGE RICHMAN
Dunn and Yun, JJ., concur
NOT PUBLISHED PURSUANT TO C.A.R. 35(e)
Announced June 11, 2020

David K. Jenner, Pro Se
Vaughan & DeMuro, David R. DeMuro, Denver, Colorado, for DefendantsAppellees

2006110039 2477 1-46-1017;

1 1

In this civil action, plaintiff, David K. Jenner appeals a district

court judgment granting the C.R.C.P. 12(b)(5) motion to dismiss
filed by defendants, the Colorado Department of Corrections (DOC),
and two of its departments, Canteen Correctional Industries and
the Time Computation Department. Jenner also appeals an award
of attorney fees to defendants. We affirm.
I.
12

Background

Jenner is an inmate in the custody of the DOC. In 2018,

proceeding pro se, he sued defendants, asserting claims pursuant
to C.R.C.P. 57, 42 U.S.C. § 1983 (2018),1 Colorado’s Uniform
Declaratory Judgments Law and State Administrative Procedure
Act, and the Due Process Clauses of the United States and Colorado
Constitutions.
13

In his complaint, Jenner claimed that the DOC had violated (1)

his procedural due process rights; and (2) section 17-24-126, C.R.S.
2019, as well as DOC Admin. Reg. 200-11(1V)(J), by failing to
operate the canteen for the exclusive benefit of inmates.

1 Jenner has not appealed the dismissal of his § 1983 claim, and we
do not address it.
1

900611 nmp 9477 1 -46-1017

If 4

In support of this claim, Jenner alleged that the DOC was

selling televisions to inmates that were only fully operable with a
remote. He further alleged that after he had purchased a television,
the DOC prohibited the possession of remotes. Jenner also alleged
that the canteen had discontinued the sale of name-brand chips in
favor of generic chips that came in reduced quantities at higher
prices. He asserted that the DOC’s actions were calculated to
maximize profits, to the detriment of inmates.
15

Jenner also claimed that the DOC had improperly calculated

his parole eligibility date. In support of this claim, he alleged that
the DOC calculated his parole eligibility date pursuant to section
17-22.5-403(2), (3), C.R.S. 2019, and that this section should not
have been applied because it is unconstitutionally vague.
16

Jenner sought compensatory and punitive damages for his

claims concerning the canteen, and declaratory and injunctive relief
with respect to both claims.
17

In response, the defendants filed a Rule 12(b)(5) motion to

dismiss, which the district court granted. The court concluded that
Jenner had not alleged a violation of any constitutionally protected
2

-i flMft r\A~t~7 A

AC H/M7 I

property right, and that neither section 17-24-126 nor regulation
200-11 created fiduciary duties for the DOC, or a private right of
action to enforce such duties. The district court also denied
Jenner’s claim regarding his parole eligibility date. In connection
with the dismissal of these claims, the court awarded attorney fees
pursuant to section 13-17-201, C.R.S. 2019. Jenner now appeals
the dismissal of his claims and the award of attorney fees.
II.
18

Standard of Review and Pleading Requirements

We review a district court’s ruling on a Rule 12(b)(5) motion de

novo, accepting the complaint’s factual allegations as true and
viewing them in the light most favorable to the plaintiff. Scott v.
Scott, 2018 COA 25, 1 17.
19

To survive a Rule 12(b)(5) motion to dismiss, a complaint must

state a “plausible” claim for relief, raising the prospect of obtaining
relief above a “speculative level.” Wame v. Hall, 2016 CO 50, If 9
(quoting BellAtl. Corp. v. Twombly, 550 U.S. 544, 555-56 (2007)).
Under this standard, while we accept the factual allegations
underlying the claim as true, “facts pleaded as legal conclusions

3

9ftn«nnmQ 9477 i.4A.mi71

(i.e., conclusory statements) are not entitled to the assumption that
they are true.” Scott, t 19.
1 10

Jenner asserts that because he proceeded pro se, his

allegations should have been liberally construed and he should not
have been held to Wame’s “heightened” pleading standard. See
People v. Bergerud, 223 P.3d 686, 696-97 (Colo. 2010). However,
“pro se litigants are bound by the same rules of civil procedure as
attorneys licensed to practice law in this state.” Negron v. Golder,
111 P.3d 538, 541 (Colo. App. 2004). Pro se parties must therefore
fulfill basic pleading requirements. See People v. Cali, 2020 CO 20,
Tf 34 (noting that courts need not rewrite pleadings for pro se
litigants); People v. Vogel, 2020 COA 55,

23. We reject Jenner’s

claim that Wame’s standard is so “heightened” as to be entirely
inapplicable to pro se parties.
III.

A.

Claims

Procedural Due Process
Law

1.
1 U

Constitutional due process protections limit the state’s ability

to infringe upon a person’s substantive and procedural rights. U.S.
Const, amends. V, XIV; see also Colo. Const, art. 2, § 25; M.S. v.
4

onnfinnnsQ oat7

People, 2013 CO 35, f 9. However, procedural due process
protections apply only when the state has deprived a person of
constitutionally recognized liberty or property interests. Bd. of
Regents of State Colls, v. Roth, 408 U.S. 564, 570 (1972). Therefore,
to state a claim for a procedural due process violation, a litigant
must allege that he has a protected interest, and that the state
deprived him of that interest without adequate procedural
safeguards. Paul v. Davis, 424 U.S. 693, 710-11 (1976); Citizen Ctr.
v. Gessler, 770 F.3d 900, 916 (10th Cir. 2014); M.S., f 10. Such an
interest may arise from the guarantees of the Constitution itself or
from state law. Paul, 424 U.S. at 710-11.
1 12

Where, as here, an inmate claims a property interest in the

conditions of his confinement, we need not parse particular
statutory or regulatory language to determine whether the statute
or regulation creates a mandatory entitlement in an inmate, and
thus, a protected property interest. Sandin v. Conner, 515 U.S.
472, 477-84 (1995); Steffey v. Orman, 461 F.3d 1218, 1221 (10th
Cir. 2006) (applying Sandin’s analysis of a liberty interest claim to a
property interest claim). The Supreme Court rejected this mode of
5

onrtei irtAoo oatj

c

analysis in Sandin. 515 U.S. at 474-84. Rather, we determine
whether a litigant has a constitutionally protected property interest
by examining the nature of the right claimed in response to a
particular deprivation. Id. at 483-84. Only deprivations that
“impose[] an ‘atypical and significant hardship on the inmate in
relation to the ordinary incidents of prison life”’ will trigger the
recognition of a constitutionally protected property right in the
conditions of confinement. Steffey, 461 F.3d at 1221 (quoting
Sandin, 515 U.S. at 484).
2.

11 13

Analysis

Here, Jenner relies on the language of section 17-24-126 to

demonstrate the existence of a property right. According to its plain
language, section 17-24-126(1) creates a “special revolving
enterprise account” in the state treasury, to be used by the DOC “to
establish and operate a canteen for the use and benefit of the
inmates of state correctional facilities.” See also § 17-24-106(l)(t)
(empowering the DOC to operate the canteen “for the use and
benefit of the inmates”). The statute states that the canteen “shall
not be operated in any manner for the personal profit of any
6

/■*/■»/■»/> 4 * ftMft (-1 A —T—9 4

employees of the division or any inmates of state correctional
facilities.” § 17-24-126(2).
1 14

Jenner additionally relies on regulation 200-11 (IV) (J) to

support his due process claim. The regulation provides that the
use of funds from the operation of the canteen will be supervised by
a committee, which will “[a]ct as trustees for the Canteen.” It also
reiterates that canteen services are “for the use and benefit of the
offenders and not in any manner for the personal profit of any
employee or offender.” DOC Admin. Reg. 200-11(1V)(L).
1 15

Construing Jenner’s briefs liberally, we perceive his argument

to be that because the statute and regulation require that the
canteen be operated for the benefit of inmates, inmates who have
purchased reasonably priced brand-name chips and functioning
televisions from the canteen have a constitutionally protected
property interest in continued access to them.2 We disagree.

2 Although Jenner alleges that his claims are “too vast to list,” and
that grounds of the complaint should not be limited to overcharging
for chips and deprivation of television access, we are tasked with
determining whether the facts alleged in the complaint are sufficient
to state a valid claim. Therefore, we must examine the particular
facts stated in the complaint. We cannot add allegations or
7

WC11f\MOOm 7 dC.1rt17 If

1 16

An inmate has no constitutionally recognized property interest

in continued access to a functioning television or remote control in
his cell. Cosco v. Uphoff, 195 F.3d 1221, 1224 (10th Cir. 1999)
(noting that states typically regulate the type of items inmates may
have in their cells); see also Rahman X v. Morgan, 300 F.3d 970,
974 (8th Cir. 2002) (stating that an inability to watch television in
one’s cell is not a significant hardship in the prison context); King v.
Frank, 328 F. Supp. 2d 940, 945 (W.D. Wis. 2004) (concluding that
the denial of a television is not a significant hardship under
Sandin); Manley v. Fordice, 945 F. Supp. 132, 136 (S.D. Miss. 1996)
(adopting a magistrate’s conclusion that “there is simply no right to
television while incarcerated created under the United States
Constitution”), affd, 132 F.3d 1455 (5th Cir. 1997).
11 17

Similarly, the Due Process Clause does not protect an inmate’s

right to access high-quality, reasonably priced chips through the
canteen. Tokar v. Armontrout, 97 F.3d 1078, 1083 (8th Cir. 1996)
(“[W]e know of no constitutional right of access to a prison gift or

consider conclusory charges of general wrongdoing. People v. Cali,
2020 CO 20, Tf 34.
8

2006110039 2477 1-46-1017 1

snack shop.”); French v. Butterworth, 614 F.2d 23, 25 (1st Cir.
1980) (concluding that there is no constitutional basis to demand
that inmates be allowed to purchase items at or near cost); see
Pepper v. Carroll, 423 F. Supp. 2d 442, 449 (D. Del. 2006) (noting
there is no Eighth Amendment right to purchase food as cheaply as
possible through the prison commissary).
1 18

Neither of these deprivations are sufficiently significant, as a

matter of law, to trigger the recognition of a corresponding property
right. Nor did Jenner’s complaint allege that he was denied any
particular procedural protections in relation to these rights, a
deficiency that also requires dismissal. We therefore conclude that
the district court properly dismissed this claim.
B.
U 19

Violation of Statute and Regulation

Jenner’s next argument appears to be that, when read

together, section 17-24-126(2) and regulation 200-11(IV)(J) create a
statutory trust for the benefit of inmates. Jenner claims that he
may enforce the DOC’s fiduciary duties under the Uniform
Declaratory Judgments Law, §§ 13-51-101 to -115, C.R.S. 2019;

9

2006110039 2477 1-46-1017 V,

C.R.C.P. 57; and the State Administrative Procedure Act,
§§ 24-4-101 to -108, C.R.S. 2019. This claim fails for two reasons.
1.
U 20

No Statutory Trust

First, the language of section 17-24-126 and regulation

200-11 do not require canteen funds to be held in trust by the DOC
for the benefit of inmates.
If 21

Funds received by the state are divided into two categories, the

general fund and special funds. § 24-75-201, C.R.S. 2019. The
canteen fund created by section 17-24-126 is a special fund
because its deposits do not come from the general fund, and it was
established by the legislature for a specific purpose. Barber v.
Ritter, 170 P.3d 763, 775 (Colo. App. 2007) (citing § 24-75-201),
affd in part and rev’d in part, 196 P.3d 238 (Colo. 2008). In Barber,
a division of this court held that “a special fund does not become a
Trust’ merely because the legislature designates a purpose for
which it may be expended.” Id. Rather, the existence of a trust is
determined by the statutory language, which must be “specific, and
the intent to impose a trust or other fiduciary duty must be
manifest.” Id.
10

2006110039 2477 1-46*1017 Y<

II 22

In examining the language of section 17-24-126(1), we note

that it does not contain the word “trust,” nor does it label any of the
DOC’s responsibilities under the statute as “fiduciary” or “trustee”
duties. Rather, it states that it “hereby create[s]” a special account,
and that the moneys therein “are appropriated for the purposes set
forth in subsection (3).” § 17-24-126(1). Subsection (3) of section
17-24-126 specifies that
[i]terns in the canteen shall be sold to inmates
... at prices set so that revenues from the sale
are sufficient to fund all expenses of the
canteen and vending machines . . . and to
produce a reasonable profit. . . . Any profits
arising from the operation of the canteen and
vending machines shall be expended for the
educational, recreational, and social benefit of
the inmates and to supplement direct inmate
needs.
123

We read this language as simply designating a purpose for the

canteen funds. The statute creates the canteen fund and then
appropriates its contents “for the purposes set forth” later in the
statute. Subsection (3) lists these purposes. The statute does not
contain any verbiage indicating that the legislature had a manifest
“intent to impose a trust or other fiduciary duty” beyond the
language defining the purpose of the fund. Barber, 170 P.3d at
11

2006110039 2477 1-46-1017 1<

775. We therefore conclude that section 17-24-126 does not create
a statutory trust in favor of inmates.
U 24

Moreover, although regulation 200-11 (IV)(J) states that a

committee of DOC employees will “[a]ct as trustees for the
Canteen . . . Account” and “[f]ollow statutory definitions of how net
profits may be expended,” the DOC asserts that the regulation
should not be interpreted to create a trust in canteen funds
because the DOC does not have the authority to place state funds
in trust. We generally accept the regulatory interpretation adopted
by the agency if it is legally reasonable and supported by the record.
Nededog v. Colo. Dep’t of Health Care Policy & Fin., 98 P.3d 960,
962 (Colo. App. 2004). Because we conclude that the legislature
did not intend to create a trust via section 17-24-126, we find the
DOC’s position that its implementing regulation cannot create such
a trust to be reasonable and supported by the record. See Table
Servs., LTD v. Hickenlooper, 257 P.3d 1210, 1217 (Colo. App. 2011)
(stating that an administrative agency may not issue regulations
exceeding its statutory authority); see also Colo. Gen. Assembly v.
Lamm, 700 P.2d 508, 519 (Colo. 1985) (noting that only the
12

2006110039 2477 1-46-1017 1!

legislature has the power to appropriate money). Therefore, the
regulation did not create a trust in favor of inmates, and Jenner’s
allegation of breach of fiduciary duty necessarily fails.
2.
125

No Private Right of Action

Second, the statute creates no private right of action for

inmates who wish to enforce it.
126

To have the standing to bring a legal claim, a plaintiff must

have “suffered (1) an injury-in-fact to (2) a legally protected
interest.” City of Arvada ex. rel. Arvada Police Dep’t v. Denver
Health & Hosp. Auth., 2017 CO 97,

19. When a statute does not

expressly protect an interest through a private right of action, such
a right may be implied. Id. at f 21. However, courts will not
recognize an implied right of action in the absence of a “clear
expression” of legislative intent. Id. at 1 22 (quoting State v.
Moldovan, 842 P.2d 220, 227 (Colo. 1992)).
127

To determine whether a private civil remedy may reasonably

be implied, we examine three factors: (1) whether the potential
plaintiff falls within the class of persons intended to receive the
benefits of the statute; (2) whether the legislature intended to create
13

2006110039 2477 1-46*1017 M

a private right of action; and (3) whether implying a civil remedy
would comport with the purposes of the legislative scheme. Id. at
127.
128

Here, Jenner, an inmate, falls within the class of persons

intended to receive the benefits of the statute. Section 17-24-126 is
clear that the canteen fund is for the “use and benefit of the
inmates.” Nonetheless, the statute is devoid of any language
indicating an intent to create a private right of action. It is utterly
silent on the issue. Moreover, the purpose of the Correctional
Industries Act, in which section 17-24-126 appears, is to “[cjreate a
division of correctional industries which is profit-oriented” and to
assume “responsibility for training offenders in general work habits,
work skills, and specific training skills that increase their
employment prospects when released.” § 17-24-102(l)(a), C.R.S.
2019. Under the Act, the DOC is to “[p]rovide an environment for
the operation of correctional industries that closely resembles the
environment for the business operations of a private corporate
entity.” § 17-24-102(l)(c). Allowing inmates to use section
17-24-126 to demand particular conditions of confinement would
14

2006110039 2477 1-46-1017 1;

hamper these purposes, preventing the DOC from making decisions
that are “profit-oriented” and geared toward training offenders in
the operation of a going concern.
129

Because the statutory language does not indicate that the

legislature intended to create a private right of action, and the
recognition of such a right would not comport with the purposes of
the legislative scheme, we decline to read a private right of action
into section 17-24-126.3
C.
130

Parole Eligibility Date

While offenders are normally eligible for parole after they have

served 50% of their sentences, minus earned time, offenders
convicted of committing certain sexual assaults who also have two
prior convictions that “would have been a crime of violence as

3Although defendants did not raise this issue, we also recognize
that Jenner’s claim for violation of section 17-24-126, C.R.S. 2019,
appears to be barred under the doctrine of issue preclusion because
he previously raised and litigated this issue. See Jenner v. Exec.
Dir., Colo. Dep’tofCorr., (Colo. App. No. 14CA1341, Dec. 31, 2015)
(not published pursuant to 35(f)) {Jenner E); see Foster v. Plock,
2017 CO 39, 1f 13 (discussing issue preclusion). We may take
judicial notice of our own records, and we do so here. Harriman v.
Cabela’s Inc., 2016 COA 43, ^ 64.
15

onn«iinrYaaoaii -i.4A.ini7 is

defined by section 18-1.3-406, C.R.S. [2019],” are not eligible for
parole until they have served 75% of their sentences.
§ 17-22.5-403(l)-(3). The DOC asserts that Jenner is required to
serve 75% of his sentence before he is parole eligible, pursuant to
section 17-22.5-403(2), (3). Jenner asserts that the DOC should
not have applied this statute because the phrase “would have been
a crime of violence” is unconstitutionally vague.
1 31

Jenner’s claim fails because it is barred by the doctrine of

claim preclusion.
1.
132

Law

Claim preclusion prevents a litigant from repeatedly re­

litigating the same cause of action. It bars the litigation of a prior
claim when “(1) ‘the judgment in the prior proceeding was final’; (2)
‘the prior and current proceeding involved identical subject matter’;
(3) ‘the prior and current proceeding involved identical claims for
relief; and (4) ‘the parties to both proceedings were identical or in
privity with one another.’” Foster v. Plock, 2017 CO 39, f 12
(quoting Meridian Serv. Metro. Dist. v. Ground Water Comm’n, 2015
CO 64, f 36).
16

AAACHAAOQ 0^-77 1_*«_1A<-7 1i

f 33

When determining whether suits involve the “identical subject

matter,” courts should evaluate whether the same evidence would
be used to prove both claims. Id. at U 28. Similarly, when deciding
whether the proceedings involve “identical claims,” courts must
disregard “the form of the action and instead look at the actual
injury underlying the first proceeding.” Id. at If 29. Different claims
involve the same injury when they concern “all or any part of the
transaction, or series of connected transactions, out of which the
[original] action arose.” Id. (alteration in original) (quoting Argus
Real Estate, Inc. v. E-470 Pub. Highway Auth., 109 P.3d 604, 609
(Colo. 2005)).
*| 34

Importantly, claim preclusion bars not only claims actually

asserted in another suit, but also claims that could have been
asserted. Id. Once a judgment enters in an action, it extinguishes
the plaintiffs remedies against the defendant regarding all, or any
part, of the transaction from which the action arose. Argus, 109
P.3d at 609 (citing Restatement (Second) of Judgments § 24 (Am.
Law Inst. 1982)). It thereby prevents parties from drawing out
litigation by splitting claims into separate actions. Id.
17

2.
135

Analysis

Here, Jenner has made multiple attempts to split challenges to

his parole eligibility date into separate actions.
136

In 2006, he filed suit against the DOC, some of its employees,

and Colorado’s attorney general, pursuant to C.R.C.P. 106(a)(2), (4).
See Jenner v. Ortiz, 155 P.3d 563 (Colo. App. 2006) (Jenner 1). In
Jenner I, he challenged the application of section 17-22.5-403(2), (3)
to his parole eligibility date, asserting that it enhanced his sentence
in manner that was declared unconstitutional in Blakely v.
Washington, 542 U.S. 296 (2004), and Apprendi v. New Jersey, 530
U.S. 466 (2000). The district court dismissed his complaint
pursuant to Rule 12(b)(5). The Jenner I division affirmed the
judgment, concluding that because a person released on parole is
still in constructive custody for the remainder of his sentence, “the
DOC’s actions affecting plaintiffs parole eligibility date have not
altered the sentence imposed on him, and the constitutional
sentence enhancement requirements . . . are irrelevant to the DOC’s
actions.” Jenner I, 155 P.3d at 565.

18

nnAO 4 4 Aniin n m 4

4 a4

f 37

Jenner subsequently challenged the constitutionality of

section 17-22.5-403(3) in Jenner v. Executive Director, Colorado
Department of Corrections, (Colo. App. No. 14CA1341, Dec. 31,
2015) (not published pursuant to 35(f)) {Jenner U), and, pursuant to
Crim. P. 35(a) and (c), in People v. Jenner, (Colo. App. No.
16CA0972, Mar. 29, 2018) (not published pursuant to 35(e)) (Jenner
JJ1).4
H 38

Claim preclusion bars this action because (1) the parties in

this action, Jenner /, and Jenner II are identical, and each of these
cases resulted in final judgments; (2) each case would require the
presentation of evidence concerning the DOC’s method of
calculating Jenner’s parole eligibility date, so they concern identical
subject matter; and (3) although the formal claims brought in each
case may differ, the underlying injury is the same — the
enlargement of the time Jenner must serve before he is eligible for
parole.

4 Because Jenner III is a criminal case, the parties in Jenner III are
not identical to the parties in Jenner I and U, although they may be
in privity with one another. We therefore do not rely on Jenner III in
our claim preclusion analysis.
19

f 39

Jenner argues that claim preclusion does not bar his claim

because he did not assert, in Jenner 1, that section
17-22.5-403(2), (3) was unconstitutionally vague. However, he
could have done so, and claim preclusion extinguishes Jenner’s
remedies with regard to all or any part of the DOC’s decision
concerning his parole eligibility date. Argus, 109 P.3d at 609. The
district court therefore properly dismissed Jenner’s claim under the
doctrine of claim preclusion.
IV.
U 40

Attorney Fees

After the district court announced its fee award pursuant to

section 13-17-201, Jenner objected, claiming that the award was
improper. In support of this objection, Jenner argued that section
13-17-102(6), C.R.S. 2019,5 not section 13-17-201, should control
the award of fees because section 13-17-201 applies broadly to any
tort claim dismissed under Rule 12(b), while section 13-17-102(6) is

5 Jenner also argued in the district court that 13-17-102(7), C.R.S.
2019, would apply. However, he makes no such argument here.
We therefore do not address it.
20

more specific. It applies only when at least one party is proceeding
pro se.
1 41

In their response, the defendants asserted that a similar

argument had been rejected in Houdek v. Mobil Oil Corp., 879 P.2d
417, 422-25 (Colo. App. 1994), and that Houdek?s rationale would
apply in this case.
H 42

Although the response did not raise any arguments that

invited new objections to the award, in his surreply, Jenner argued
for the first time that because the DOC did not raise the Colorado
Governmental Immunity Act (CGIA) as a defense, “this raises a
question as to whether the action lies in tort. . . .” We assume that
by raising the DOC’s failure to cite the CGIA, Jenner was pointing
out that fees may only be awarded under section 13-17-201 in
“actions brought as a result of ... an injury to person or property
occasioned by the tort of any other person . . . .” (Emphasis added.)
If 43

In its final written fee order, the district court did not

specifically address which of Jenner’s claims sound in tort. It
simply rejected Jenner’s argument that section 13-17-102(6)
controls the award of fees in this case.
21

144

On appeal, Jenner raises both objections that he raised in the

district court. Because Jenner only asserted in his surreply that
his claims were not tort claims, the district court declined to
specifically address that assertion. Therefore, we need not do so.
See Parks v. Edward Dale Parrish LLC, 2019 COA 13, 1 31 (noting
that where the party appeals costs on a basis not asserted in the
district court, the issue is not preserved, and we need not consider
it).
145

However, if we were to address it, Jenner’s claim for breach of

fiduciary duty, his demand for compensatory relief (including a
demand that he be reimbursed for the cost of his television), and
his demand for punitive damages pursuant to section
13-21-102(l)(a), C.R.S. 2019, appear to sound in tort. Accident &
Injury Med. Specialists, P.C. v. Mintz, 2012 CO 50, 1 21 (“The breach
of fiduciary duty cause of action is a tort to remedy economic harm
suffered by one party due to a breach of duties owed in a fiduciary
relationship.”); Mortg. Fin., Inc. v. Podleski, 742 P.2d 900, 902 (Colo.
1987) (“The language of [the punitive damages statute], Tor a wrong
done to the person, or to personal or real property,’ contemplates
22

onncuonoo nAT~r i.yie.i m*7 oi

tortious conduct.”). It was therefore well within the district court’s
discretion to award fees under section 13-17-201. Crow v. PenroseSt. Francis Healthcare Sys., 262 P.3d 991, 997 (Colo. App. 2011)
(concluding that an award of fees was proper where plaintiff chose
to include tort claims to obtain relief beyond what was available
under alternate claims); Dubray v. Intertribal Bison Coop., 192 P.3d
604, 607 (Colo. App. 2008).
1146

We also reject Jenner’s argument that section 13-17-102(6)

controls because it is more specific than section 13-17-201. While
we acknowledge that in the course of construing statutes that seem
to conflict, Colorado courts have noted that a specific statutory
provision may act as an exception to a more general provision, no
such conflict arises here. See People v. Stellabotte, 2018 CO 66
1| 32. The two statutes create alternative grounds for the award of
fees depending on the facts of the case, and each has its own
limitations. Section 13-17-201 mandates an award of fees
whenever an action that sounds in tort is dismissed under Rule
12(b). By its terms, it permits no exceptions. Crandall v. City of

23

2006110039 2477 1-46-1017 21

Denver, 238 P.3d 659, 663 (Colo. 2010); Hewitt v. Rice, 119 P.3d
541, 546 (Colo. App. 2004), affd, 154 P.3d 408 (Colo. 2007).
1f 47

To the extent the two statutes may be said to conflict when pro

se litigants are involved, we are persuaded that the rationale
employed in Houdek applies here. The Houdek division concluded
that section 13-17-201 controls over section 13-17-102 because
section 13-17-201 is the more specific statute and was enacted
after section 13-17-102. 879 P.2d at 425 (noting that the more
specific statute controls over the general and the provisions of the
most recently enacted statute control). Section 13-17-201 therefore
authorizes the assessment of fees against Jenner in this case, and
the district court did not err in awarding such fees.
V.

f 48

Conclusion

We affirm the judgment dismissing Jenner’s claims and the

award of fees to the defendants.
JUDGE DUNN and JUDGE YUN concur.

1

3

24

OAftCUftft'JO OAT7

